W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-7389

Emem Ufot Udoh

Becky Dooley, Warden

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Jon Schmidt

Date:

3/15/21

Digitally signed by Jon Schmidt
Date: 2021.03.15 10:26:02 -05'00'

(Type or print) Name Jonathan P. Schmidt
Mr.

Ms.

Mrs.

Firm

Hennepin County Attorney's Office

Address

C2000 Government Center, 300 S. 6th Street

City & State

Minneapolis, Minnesota

Phone

612-543-4588

Miss

Zip 55487
Email

Jon.Schmidt@hennepin.us

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Emem Ufot Udoh, OID # 245042
MCF - Moose Lake
1000 Lake Shore Drive
Moose Lake, MN 55767

